              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR


                                                                                           May 30,2013

Memorandum

To:            Eric Eisenstein
               Division Chief, Internal Control and Audit Follow-up
               Office of Financial Management

From:          Charles Haman
               Central Region M             r or Audits, Inspections, and Evaluations

Subject:       Verification Review of Recommendations for the Evaluation Report, "Office of
               Enforcement, Office ofNatural Resources Revenue" (CR-EV-MMS-0002-2010)
               Report No. C-VS-ONRR-0006-2013

         The U.S. Department of the Interior, Office oflnspector General (OIG), has completed a
verification review of the seven recommendations presented in the evaluation report "Office of
Enforcement, Office ofNatural Resources Revenue" (CR-EV-MMS-0002-2010). The objective
of this verification was to determine whether the recommendations were implemented by the
Office of Natural Resources Revenue (ONRR) as reported to the Office of Financial
Management (PFM), Office of Policy, Management and Budget (PMB). PFM reported to OIG
when each of the seven recommendations in the subject report had been addressed and provided
supporting documentation. The evaluation report effectively closed on August 20, 2012. Based
on our verification, we concur that all recommendations are resolved and implemented.

Background

       Our January 2012 evaluation report "Office of Enforcement, Office ofNatural Resources
Revenue" (CR-EV-MMS-0002-2010) noted that ONRR had an opportunity to improve the
timeliness and efficiency of its compliance activities. We made seven recommendations to
improve the efficiency ofONRR's enforcement process and to obtain more timely compliance
from companies.

        In a memorandum dated November 29,2011, ONRR concurred with all seven
recommendations in the draft report. ONRR provided a response to each recommendation that
identified corrective actions to be taken by the fourth quarter of fiscal year 2012. Based on this
response, we considered all seven recommendations resolved but not implemented. On January
13, 2012, we referred the recommendations to PMB for tracking and implementation.

      Subsequently, PFM issued a series of memorandums as they closed the
recommendations. On June 9, 2012, PFM reported that Recommendations 4, 5, 6, and 7 were
implemented and closed. On August 14, 2012, PFM reported that Recommendation 3 was



                         Office of Audits, Inspections, and Evaluations   I Lakewood, CO
implemented and closed. On August 20, 2012, PFM issued its final memorandum indicating that
Recommendations 1 and 2 had been implemented and closed.

Scope and Methodology

       The scope of this review was limited to determining whether ONRR took action to
implement the seven recommendations of the report. To accomplish our objective, we reviewed
the supporting documentation that ONRR officials provided to PFM and us. We discussed
ONRR’s actions related to each recommendation and independently verified their
implementation.

       We did not visit any sites or conduct other fieldwork to determine if ONRR corrected the
underlying deficiencies that we initially identified. As a result, this review was not conducted in
accordance with the Generally Accepted Government Auditing Standards issued by the
Comptroller General of the United States or the “Quality Standards for Inspection and
Evaluation” of the Council of the Inspectors General on Integrity and Efficiency.

Results of Review

We concluded that ONRR implemented and resolved all seven recommendations.

       Recommendation 1: Improve procedures and management controls to ensure that
       operating divisions with delegated NONC [Notices of Noncompliance] authority issue
       NONC’s timely and return NONCs promptly back to OE for civil penalty assessment
       once the cure period has expired.

       Recommendation 2: Strengthen procedures to ensure that NONCs are issued promptly,
       and that civil penalties are assessed and increased when companies do not comply timely.

       We consider Recommendations 1 and 2 resolved and implemented.

Action Taken: First, for context, ONRR consists of three divisions: Financial and Program
Management, Audit and Compliance Management, and Office of Enforcement (OE) (the subject
of this review). The latter has three branches: Enforcement Operations Branch, Alternative
Dispute Resolution Branch, and Litigation Support Branch.

        To implement Recommendations 1 and 2, ONRR updated section 3.6 “Redelegated
NONCs” of “Enforcement Operations Core Procedures” to include better tracking procedures
that ensure timelier issuing and processing of NONCs. The guidance, finalized on March 27,
2012, requires OE to:

       1) request signed NONCs for its case files,
       2) enter NONC issue dates into their tracking system, and
       3) follow up with the appropriate case accountant or specialist 45 days after a company
          receives the NONC.




                                                 2
       In addition, the new guidance requires the enforcement operations officer to generate a
monthly report and follow-up on all delegated cases where OE has not issued a civil penalty 90
or more days following issuance.

         ONRR has also instituted additional reporting and tracking procedures to improve
timeliness in issuing and processing NONCs and ensuring civil penalties are assessed for those
not in compliance. The Production Reporting and Verification unit within the Financial and
Program Management Division runs a tracking report mid-month, and reviews the report to
ensure NONCs are issued timely for Orders to Report that are past due. 1 OE's Enforcement
Operations Branch also created two new monthly case-aging reports for delegated NONCs. The
first report shows delegated cases that have gone 60 days with no actions. The second report
shows issued NONCs that are more than 60 days old for which no civil penalties have been
assessed.

         Recommendation 3: Fully document the justification for civil penalty amounts.

         We consider Recommendation 3 resolved and implemented.

Action Taken: In response to our report, ONRR noted that the elements justifying civil penalty
amounts already existed throughout its case files, but to improve record keeping they developed
a standardized form to capture the justification elements in one place in each file. In addition to
case number and company name, this “Civil Penalty Assessment Worksheet” contains several
fields including one for an Assessment Rate and one for the Assessment Basis and Justification
(required only when OE assesses a civil penalty). Each factor listed also contains a
determination, and the date and location within the case file.

         Recommendation 4: Prepare and document a preliminary risk assessment summary, as
         required by the “Negotiated Agreement Manual,” prior to entering into negotiations with
         companies.

         Recommendation 5: Include instructions in the “Negotiated Agreement Manual” that a
         preliminary minimum settlement amount should be determined, with justification for that
         amount, and added to the preliminary risk assessment summary prior to negotiating a
         settlement amount.

         We consider Recommendations 4 and 5 resolved and implemented.

Action Taken: ONRR developed a form to capture, in one place, preliminary risk assessment
summary information in case files. The form includes space to: summarize the case, describe the
applicable risks associated with each issue of the case, and state the minimum settlement terms
including a justification for the minimum settlement amount. Furthermore, ONRR revised its
“Negotiated Agreement Manual,” as of March 31, 2012, to clearly indicate that a risk assessment
should be conducted prior to negotiating a settlement amount, should document the minimum


1
 In the sample drawn for our original report, the majority of NONC cases originated from the Financial and Program
Management Division.


                                                              3
settlement amount, and should include a justification if the settlement terms are less than 100%
of what is owed.

       Recommendation 6: Develop and implement written policies and procedures to: 1)
       instruct companies to prepay the Agreement in Principle amount by a date certain to
       avoid lost interest while the final settlement agreement is being processed and executed,
       and 2) require companies to make additional interest payments should they not make the
       full prepayment by the specified date.

       We consider Recommendation 6 resolved and implemented.

Action Taken: On March 16, 2012, the Program Manager for OE distributed a memorandum to
the Alternative Dispute Resolution Branch documenting the policies and procedures regarding
Payment of Settlement Agreement Amounts. The memorandum notes that every settlement
agreement must include a requirement that the company pre-pays the Settlement Agreement in
Principle Amount by a certain date or pay interest from the time the prepayment was due through
the date ONRR receives payment. The memorandum also states that prior to negotiating a
settlement agreement, OE personnel must inform the company and non-OE members of the
settlement team that the requirement is non-negotiable. A reference to further detailed policies
and procedures regarding payments of interest on agreements in principle was included in the
March 31, 2012 revised addition of the “Negotiated Agreements Manual.”

       Recommendation 7: Continue to improve the tracking system for sureties so that the
       surety accountant can easily identify that all sureties are received, and all updates
       obtained timely.

       We consider Recommendation 7 resolved and implemented.

Action Taken: On May 10, 2012, ONRR updated its surety process under the “Office of
Management and Budget,Circular A-123-Management’s Responsibility for Internal Control” (A-
123)to include a procedure whereby the OE accountant checks the Appeals Database for new
appeals. OE also has documented procedures for ensuring that appeals requiring a surety are in
compliance, including importing information from the Appeals Database into the Surety
Database for tracking. Every 2 weeks, the OE accountant runs reports from the latter system to
identify if OE should increase or update a surety based on the current interest calculation, and to
identify active appeals that are not in compliance with surety requirements. An ONRR A-123
quarterly testing report from the first quarter of fiscal year 2012 found no discrepancies in OE’s
surety process, that procedures were being followed, and that identified risks were being
mitigated.

Conclusion

       We informed ONRR officials of the results of this review on April 25, 2013. ONRR
agreed with the results of our review.

cc:    Gregory J. Gould, Director, Office of Natural Resources Revenue



                                                 4
Deborah Gibbs Tschudy, Deputy Director, Office of Natural Resources Revenue
Sarah Inderbitzin, OE Program Manager, Office of Natural Resources Revenue
Gwenna Zachini, Audit Liaison, Office of Natural Resources Revenue
Nancy Thomas, Office of Financial Management




                                     5
